                              O ffice of th e Ins pe ctor Ge ne ral


K e nne th S. A pfe l

Com m is s ione r of SocialSe curity



Ins pe ctor Ge ne ral



Titl

   e IISoftw are Re de s ign Is O ve rdue


Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our re vie w of th e Title IISoftw are
Re de s ign Proje ct (A-09 -9 7-11001). Th e obje ctive s w e re to e val   uate th e pl ans for
SocialSe curity Adm inis tration’                        e IIs oftw are and de te rm ine if th e
                                     s re de s ign of titl
proje ct is on s ch e dul
                        e.

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
your s taff contact Pam e l
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                    D avid C. W il
                                                                 liam s

A ttach m e nt

cc:

O IG/ES

Re ading Fil
e
Subje ct File
SSA /O IG/O A /JTRUD EL/gp/cl
                            h /6-2-9 8        9 7-1101-FNL
Re port Fil
          e
                    E X E CUTIVE S U M M A R Y 


O BJECTIVES

Th e obje ctive s of th is audit w e re to e valuate th e plans for th e SocialSe curity
Adm inis tration’ s (SSA )re de s ign of title IIs oftw are and to de te rm ine w h e th e r th e
proje ct is on s ch e dule.

BACKGROUND

In th e e arly 19 80’ s , SSA ’s s y s te m s m ode rnization pl    an re cognize d th e ne e d for a
re de s ign of titl
                  e IIs oftw are to s tre am l                                 d ope rations .
                                                 ine both s y s te m s and fie l
Starting in 19 85, SSA be gan a m ajor e ffort to m ode rnize its com pute r s y s te m s and
s oftw are w ith pl anne d obje ctive s s uch as providing tim e l      y de live ry of be ne fit
paym e nt ch e ck s and im proving cus tom e r s e rvice in th e fie l     d office s (FO ). A s e rie s
of ne w s oftw are program s w as re l      e as e d to im prove autom ation for th e titl   e IIinitial
claim s proce s s in th e FO s .

In 19 9 4, due to s taff re ductions and th e ne e d for e nh ance d cus tom e r s e rvice , SSA
initiate d th e Titl
                   e IISoftw are Re de s ign Proje ct (Re de s ign) to cre ate a s ingl    e s y s te m
for on-l  ine proce s s ing of both initialcl  aim s and pos t-e ntitl e m e nt (PE)e ve nts .
A cos t be ne fit anal   y s is (CBA )w as pre pare d in 19 9 6 w h ich proje cte d, bas e d on
planning as s um ptions , th at ful   lim ple m e ntation of Re de s ign w oul  d re s ul
                                                                                        t in
2,587 annualw ork ye ar s avings .

In 19 9 7, SSA e s tim ate d th at 18 pe rce nt of initialcl aim s are proce s s e d m anual  l
                                                                                              y
and 82 pe rce nt are proce s s e d th rough th e M ode rnize d Cl    aim s Syste m (M CS). Th e
proce s s ing of PE trans actions is pe rform e d by a s e rie s of 28 s oftw are program s
th at are cons ide re d outm ode d be caus e th e y are s tand-al   one s y s te m s and are not
inte grate d. Th e s e PE trans actions al s o invol ve m anualproce s s ing by se ve ral
th ous and e m ploye e s locate d at SSA ’ s s e ve n proce s s ing ce nte rs .

Th e im portance of Re de s ign w as note d in SSA ’        s Bus ine s s Plan (Fis calYe ars
(FY)19 9 8-2002)w h ich ide ntifie d it as one of th e A ge ncy’          s five k e y initiative s .
Th e s e k e y initiative s are of critical, s trate gic im portance for SSA to ach ie ve its
bus ine s s and pe rform ance obje ctive s . Th e Bus ine s s Pl    an e s tabl is h e d FY 2000 as
th e targe t date for ful   lim ple m e ntation of Re de s ign.




                                                   i
FIND INGS
     • RED ESIGN PRO JECT STA TUS

     • FIELD STA FF SAVINGS UNREA LIZ ED

     • RED ESIGN PRO GRESS IS SLO W

CO NCLUSIO NS AND RECOMMENDATIO NS
Proje ctim pl  e m e ntation h as b e e n de l
                                             aye d and re s tructure d for a num be r of re as ons ,
incl uding lack ofM e dicare bus ine s s k now l    e dge and ins ufficie nts taffand re s ource s
as s igne d. A s a re s ult, th e re al
                                      ization ofan e s tim ate d 2,587 w ork ye ars annual     ly w il
                                                                                                     l
be de l aye d, th us re ducing th e s taff re s ource s avail able to pe rform oth e r ne e de d
cus tom e r s e rvice s . W e are re com m e nding th at SSA incre as e th e re s ource s
as s igne d to Re de s ign in orde r to m e e t th e FY 2000 targe t for finalcom pl        e tion.

AGENCY CO M M ENTS
In its w ritte n re s pons e to th e draft re port, SSA agre e d w ith our findings and
re com m e ndations . To date , SSA h as as s igne d additionalre s ource s to th e proje ct,
incl uding s taff w ith M e dicare and h e al    th ins urance e xpe rtis e , and obtaine d
h igh -pe rform ance com pute rs to e xpe dite com pl          e tion of th e s oftw are m odul   es.
SSA al   s o s tate d th at it h as re -e valuate d th e im pl   e m e ntation s ch e dule for th e
proje ct and de ve l    ope d a s trate gy to accom pl     is h th e Re de s ign th rough incre m e ntal
s oftw are re l e as e s . SSA ack now l   e dge d th at Re de s ign w il   lnot be ful  ly im ple m e nte d
by FY 2000 but h as pl        anne d s e ve ralre le as e s to provide inte rim w ork ye ar s avings
for FY s 19 9 9 and 2000. (Se e A ppe ndix A for th e ful               lte xt of th e A ge ncy’s
com m e nts .)

O IG RESPO NSE
W e agre e w ith th e corre ctive actions tak e n by th e A ge ncy.




                                                     ii
                      TA BLE O F CO NTENTS


                                                                                                     Page


EXECUTIVE SUM M A RY............................................................................ i


INTRO D UCTIO N ..................................................................................... 1


RESULTS O F REVIEW ............................................................................. 5


    • RED ESIGN PRO JECT STA TUS ........................................................ 5


    • FIELD STA FF SAVINGS UNREA LIZ ED .............................................. 6


    • RED ESIGN PRO GRESS IS SLO W ..................................................... 6


         Lack of M e dicare Expe rtis e ............................................................ 6


                                             y s ts ............................................ 7
         Sh ortage of Program m e rs and A nal


         Us e of Pe rs onalCom pute rs for Softw are Te s ting ............................... 7


CO NCLUSIO NS AND RECO M M END A TIO NS................................................ 8


A PPEND ICES


A ppe ndix A - SSA Com m e nts to th e D raft Re port
A ppe ndix B - M ajor Contributors to th e Re port
A ppe ndix C - SSA O rganizationalCh art
                                INTR O D UCTIO N


O BJECTIVES

Th e obje ctive s of th is audit w e re to e val uate th e pl ans for SSA ’ s re de s ign of titl
                                                                                                e II
s oftw are and to de te rm ine w h e th e r th e proje ct is on s ch e dul
                                                                         e.

BACKGROUND

M ode rnization of M ainfram e Softw are

SSA be gan a m ajor e ffort to m ode rnize its com pute r s y s te m s in th e m id-19 80s
w ith ove rallgoal  s of e ns uring th e tim e l
                                               y de l
                                                    ive ry of be ne fit paym e nt ch e ck s and
im proving cus tom e r s e rvice in FO s . Th e s y s te m s m ode rnization pl an de ve lope d by
SSA al s o ide ntifie d pote ntialim prove m e nts re l ate d to s oftw are de ve l
                                                                                  opm e nt.

InitialCl
        aim s

SSA ’ s re l  e as e of ne w s oftw are in 19 85, th e titl
                                                          e IIM CS, provide d autom ation for
initialcl  aim s tak e n in FO s . Th e M CS s oftw are capture d initialcl   aim s data on-l ine
as it w as e nte re d by FO s taff onto th e data bas e . In th e firs t re l e as e of M CS
s oftw are , th is data w as re form atte d for proce s s ing in th e batch Cl   aim s A utom ate d
Proce s s ing Sys te m (CA PS). From 19 85 to th e pre s e nt, in a s e rie s of incre m e ntal
re l
   e as e s , SSA h as us e d batch and on-l   ine proce s s ing to ach ie ve an 82 pe rce nt
autom ation rate for proce s s ing initialcl    aim s .

Th e initialcl  aim s proce s s be gins at an FO w h e n an appl        icant fil
                                                                                e s a cl aim . Th e
claim s are k e ye d by cl   aim s re pre s e ntative s th rough th e M CS s y s te m . Th e M CS
data col   l
           e ction s oftw are pe rform s s urface , re l   ations h ip, and oth e r e dits . About
72 pe rce nt of initialcl   aim s are proce s s e d in an on-l   ine , inte ractive m ode in w h ich
e arnings , e ntitle m e nt, and be ne fits are com pute d. About 10 pe rce nt are
proce s s e d in th e CA PS autom ate d s y s te m and 18 pe rce nt m us t be forw arde d to a
proce s s ing ce nte r for m anualproce s s ing.

Pos t-e ntitl
            e m e nt A ctions

A ny e ve nt afte r th e initialfiling of a claim for be ne fits is cons ide re d a PE e ve nt.
Th e s e e ve nts can be re porte d by th e be ne ficiary via a ne tw ork of FO s and
te l
   e ph one ce nte rs , initiate d by date trigge rs or oth e r data al
                                                                      re ady on fil  e , or
originate d by oth e r autom ate d s y s te m s in th e NationalCom pute r Ce nte r. Th e


                                                 1

curre nt s y s te m for proce s s ing PE trans actions is a col     le ction of 28 program s th at
inde pe nde ntl   y pe rform various functions to adjus t paym e nts and update cl        ie nt
inform ation. Th e functioning of th e s e 28 s oftw are program s is ine fficie nt and
s om e tim e s re dundant be caus e th e y are s tand-al    one program s and not inte grate d.
A s a re s ul t, th e PE trans actions invol   ve m anualproce s s ing by s e ve ralth ous and
e m ploye e s l ocate d at SSA ’  s s e ve n proce s s ing ce nte rs .

A s an e xam pl   e of th e s e ine fficie ncie s , cons ide r an e ve nt invol  ving th e re ce ipt of a
re troactive titl e IIbe ne fit by an individualw h o al       s o re ce ive s Suppl   e m e ntalSe curity
Incom e (SSI)be ne fits . SSA m us t proce s s a “w indfal           loffs e t”action to re duce th e
re troactive paym e nt by an am ount th at re duce s th e SSIpaym e nts to e q ualw h at
s h ould h ave be e n paid h ad th e titl    e IIbe ne fits b e e n re ce ive d w h e n due . Curre ntl y,
th is action invol  ve s th re e trans actions re q uiring m anualproce s s ing. Unde r
Re de s ign, s oftw are inte gration w il    le lim inate th e m anualproce s s ing of an
e xce ption action at th e proce s s ing ce nte rs . SSA e s tim ate s th at Re de s ign w oul        d
h ave e l im inate d 177,000 e xce ptions during FY 19 9 6 re l           ate d to th is e ve nt al
                                                                                                  one .

Autom ation of Proce s s ing Exce ptions and Lim itations

In th e e arl y 19 9 0’ s , due to s taff re ductions and grow ing ne e ds for dire ct cus tom e r
contact, SSA ’     s m anage rs re q ue s te d th e O ffice of Sys te m s (O S) to provide
w ork l  oad re l
                ie f by autom ating be ne ficiary trans actions th at th e M CS and PE
s y s te m s could not com pl   e te autom atical   l
                                                    y. In re s pons e , O S conducte d a s tudy
th at ide ntifie d 400 type s of e xce ptions in th e titl   e IIs y s te m s . Th e s e e xce ptions
re q uire d an e s tim ate d 2,000 w ork ye ars of m anualproce s s ing annual          ly in FO s and
proce s s ing ce nte rs .

SSA Re de s ign Initiative

SSA note d th at al     lof th e title IIs oftw are program s re q uire d ch ange s if th e A ge ncy
w e re to s ave 2,000 w ork ye ars annual       ly by autom ating th e proce s s ing of
e xce ptions and l    im itations . SSA re cognize d th at m any of th e s am e ch ange s w e re
ne e de d in diffe re nt program s , l  e ading to th e re com m e ndation th at SSA de ve l  op a
com m on code for us e in titl      e IIproce s s ing. In l  ate 19 9 4, SSA form ally approve d
th e re de s ign proje ct. Th e l  ong-te rm purpos e s of Re de s ign are to: 1)e l   im inate th e
m anualproce s s ing of e xce ptions and al        e rts , 2)m ak e additionalinform ation
avail abl e on-l ine , and 3)cons ol    idate title IIcom pute r program s .

Th e re e ngine e re d s oftw are unde r Re de s ign w il    lcons is t of 13 com m on bus ine s s
functions in ove r 700 proce s s m odul        e s th at s e rve al
                                                                  linitialcl aim s and PE
trans actions . Th e proce s s of de ve l    oping Re de s ign s oftw are cons is ts of com bining
th e m odifie d e xis ting code w ith ne w l    y de ve l
                                                        ope d code into th e re de s igne d s y s te m .
Th is e ffort is a m ul ti-s te p proce s s th at be gins w ith de fining data ne e ds and
de ve l
      oping proce s s ing s pe cifications , and e nds w ith rigorous val        idation agains t


                                                    2

th ous ands of s am pl
                     e te s t cas e s de picting a w ide varie ty of e ve nt proce s s ing
s ce narios .

O S e s tim ate d th at 1,470 w ork ye ars ove r a 7-ye ar pe riod (FY 19 9 6 th rough
FY 2002)are ne e de d to com pl       e te Re de s ign and to furth e r im prove M CS. D uring
th e s am e pe riod, th is e ffort w il
                                      lre s ult in e s tim ate d s avings of ove r
9 ,800 w ork ye ars , of w h ich 5,810 w ork ye ars are s pe cifical     l     ate d to Re de s ign.
                                                                          y re l
Th e re m aining 3,9 9 0 w ork ye ars re l  ate to M CS initiative s . Th e anticipate d
w ork ye ar s avings from Re de s ign by FY is s h ow n in th e fol      low ing tabl e.

                    Tabl
                       e 1. Sch e dul
                                    e of Re de s ign W ork ye ar Savings


                    FY s       Re l
                                  e as e 1       Re l
                                                    e as e 2       TotalSavings
                                                                   (IN W O RKYEARS )
                  19 9 6             0                 0                   0
                  19 9 7             0                 0                   0
                  19 9 8             0                 0                   0
                  19 9 9           318                 0                 318
                  2000             318                 0                 318
                  2001             318             2,269               2,587
                  2002             318             2,269               2,587
                  Total s        1,272             4,538               5,810

Bas e s for Savings

Inte grate d Cl
              ie nt D ata

Re de s ign s oftw are w ills upport a s e parate cl     ie nt update proce s s prior to proce s s ing
a trans action th rough th e titl e IIbus ine s s s y s te m . Be caus e SSA curre ntl    y s tore s
clie nt data in s e ve n data bas e s , th e re is s ignificant re dundancy in th e s torage of
data. SSA h as al     re ady be gun to e s tabl   is h a s ingle cl
                                                                  ie nt-s pe cific data bas e th at
contains inform ation about a pe rs on th at is not program s pe cific.

Th e m ain be ne fit from inte grating cl   ie nt data is incre as e d e fficie ncy by e lim inating
th e ne e d to k e y data m ore th an once . O th e r be ne fits incl  ude im prove d s e rvice by
el im inating th e ne e d for e m pl
                                   oye e s to as k cus tom e rs for th e s am e inform ation
m ore th an once in m ul    tiple cl
                                   aim s s ituations and by al   e rting e m pl  oye e s w h e n
criticalcl  ie nt data h as ch ange d in anoth e r s y s te m .

Eve ntual  ly, allSSA s y s te m s w illacce s s inform ation about a pe rs on from th e cl      ie nt
data bas e . A ne w proce s s function to be de ve l        ope d afte r th e com pl  e tion of
Re de s ign w illde te rm ine if a trans action input for one s y s te m al    s o re q uire s
proce s s ing by anoth e r e ntitle m e nt s y s te m (titl
                                                          e II, titl
                                                                   e XVI, Rail road Re tire m e nt, or


                                                  3

Black Lung). Th is ne w proce s s w il
                                     lautom atical
                                                 ly s e nd th e trans action to any
oth e r program s th at appl
                           y.

Standard Batch D ata Form ats

In 19 9 7, SSA re ce ive d data in diffe ring form ats from num e rous s ource s both
inte rnaland e xte rnalto th e A ge ncy. For e xam pl      e , addre s s data m ay be form atte d
diffe re ntly on th e “ch ange of addre s s ”input and th e “dire ct de pos it”input. Th e
curre nt proce s s ing s y s te m us e s about 20 diffe re nt program s to e dit th e s e
ele m e nts . W ith Re de s ign, one s oftw are program w il    lbe us e d to conve rt al   ldata
input in th e batch s y s te m to a s ingl  e form at be fore proce s s ing be gins , re s ulting in
a cons is te nt addre s s de s cription.

Trans action Inform ation and Status

Re de s ign w illcolle ct and s tore inform ation for e ach be ne ficiary trans action and its
proce s s ing s tatus . Th is ne w fe ature w il lprovide on-l ine acce s s to m ore
com pre h e ns ive cus tom e r inform ation, e nabl ing e m ploye e s to re s pond m ore q uick l
                                                                                                y
and accurate l   y to cus tom e r inq uirie s and to com ple te m ore trans actions in a s ingl e
contact.

Batch Trans actions Proce s s e d O n-l
                                      ine

In th e Re de s ign e nvironm e nt, th e bas ic bus ine s s functions w il  lbe com m on
be tw e e n batch and on-l  ine trans actions . O ne obje ctive of Re de s ign is to incre as e
th e num be r of trans actions proce s s e d on-l  ine . O nce Re de s ign is com pl  e te d, SSA
w illbe gin s ch e duling batch trans actions curre ntl    y run at nigh t, to be m ade
avail abl e for on-line proce s s ing during idl e daytim e h ours w h e ne ve r com pute r
proce s s ing pow e r is availabl e . Trans actions w il   lbe proce s s e d on-l
                                                                                ine , alth ough
SSA anticipate s th at th e re w il  lalw ays be a ne e d to s upport s om e batch
proce s s ing.

SCO PE AND M ETH O D O LO GY

O ur obje ctive s w e re to e val  uate th e plans for Re de s ign and to de te rm ine w h e th e r
th e proje ct is on s ch e dul e . To accom pl    is h our obje ctive s , w e : 1)h e ld dis cus s ions
w ith SSA H e adq uarte rs s taff, 2)re vie w e d th e re de s ign proje ct and pl     anning
docum e nts , 3)cons ul    te d th ird-party s y s te m de s ign e xpe rts , and 4)re vie w e d
indus try inform ation on m ode rnizing s oftw are s y s te m s . W e did not re vie w th e
m e th odology us e d or ve rify th e accuracy of e s tim ate s provide d by SSA w h ich are
containe d in th is re port. Th e audit w as conducte d at Bal          tim ore , M aryland, and
San Francis co, Cal    ifornia, from January to O ctobe r 19 9 7. O ur audit w as
conducte d in accordance w ith ge ne ral       ly acce pte d gove rnm e nt auditing s tandards .



                                                   4

                      R E S U LTS O F R E VIE W


In 19 9 4, SSA initiate d Re de s ign and h as m ade s ignificant progre s s in th e initial
s tage s of de s ign and de ve lopm e nt. Th e proje ct h as a cl  e ar goalof providing a
s ingle s y s te m for autom ating al    e IIbus ine s s trans actions . Th e pl
                                     ltitl                                         anning
activitie s h ave be e n both de tail
                                    e d and com pre h e ns ive , and incl  ude d a CBA and an
im ple m e ntation s ch e dul
                            e of tw o s oftw are re l
                                                    e as e s in Se pte m be r 19 9 8 and
Se pte m be r 2000.

H ow e ve r, w e found th at proje ct im pl   e m e ntation is b e h ind s ch e dule and th e
e xpe cte d finalcom pl    e tion date is now unk now n. A l     th ough SSA e s tim ate d th e
de l ay for th e firs t re l
                           e as e from 3 to 6 m onth s , th at re l e as e onl y accounts for about
12 pe rce nt of th e e xpe cte d totalannuals avings re l      ate d to Re de s ign. Th us , th e
e s tim ate d annuals avings of 2,587 w ork ye ars d e ve l     ope d in CBA for FO s and
proce s s ing ce nte rs w il  ls ubs tantial
                                           ly be de l aye d untilcom pl    e tion of th e proje ct,
th e re by pre ve nting SSA from re al     l
                                           ocating s taff to h e lp m e e toth e r cus tom e r s e rvice
ne e ds .

Proje ctim pl e m e ntation h as b e e n de laye d for a num be r of re as ons , including l ack of
M e dicare bus ine s s k now l  e dge and ins ufficie ntas s ignm e ntofs taffand re s ource s . Th is
occurre d e ve n th ough SSA ’     s Bus ine s s Pl
                                                  an ide ntifie d Re de s ign as one of five critical
initiative s ne e de d for th e A ge ncy to ach ie ve its busine s s and pe rform ance obje ctive s .
W e are re com m e nding th at SSA incre as e th e s taffing and e q uipm e nt re s ource s
as s igne d to th e proje ct in orde r to acce l   e rate th e s oftw are coding and te s ting.

RED ESIGN PRO JECT STA TUS

O ur re vie w of th e program m ing e ffort for 9 of th e 13 ne w bus ine s s functions
s h ow e d th at onl y 20 pe rce nt of th e tas k s w e re com pl     e te d. Tw o of th e nine
functions w e re 100 pe rce nt com pl      e te d, th re e w e re jus t s tarte d (l
                                                                                   e s s th an
2 pe rce nt com pl   e te d), and th e re m aining four w e re l   e s s th an 30 pe rce nt
com pl   e te d. O ve rall, w e found th at th e avail   able re s ource s for s oftw are
de ve l opm e nt are be tw e e n 70 and 75 pe rce nt of th e ne ce s s ary re s ource s th at SSA
e s tim ate d w oul d be re q uire d to com pl  e te th e proje ct.

In M arch 19 9 7, Re de s ign officials indicate d th at SSA w as on s ch e dul   e to m e e t th e
initialre l
          e as e date of Se pte m be r 19 9 8. H ow e ve r, by Se pte m be r 19 9 7, th e
follow ing ch ange s to th e proje ct s ch e dul
                                               e w e re re porte d to SSA m anage m e nt:

    • a m inim um de l
                     ay of 3 to 6 m onth s for th e initials oftw are re l
                                                                         e as e , and


                                                   5

    • a propos e d ch ange to th e num be r and tim ing of s oftw are re l
                                                                         e as e s for th e
      proje ct.

A s e cond or “inte rim ”re l
                            e as e w as propos e d to provide s om e of th e w ork ye ar
s avings indicate d in CBA . Th e date for th e finalre le as e h as not be e n s e t.

FIELD STA FF SAVINGS UNREA LIZ ED

Re de s ign official s s tate d th at th e firs t re l
                                                     e as e re pre s e nts a m ajor ch ange in th e
w ay SSA curre ntl    y pe rform s titl  e IIproce s s ing. H ow e ve r, th e annuals avings of
318 w ork ye ars e xpe cte d w ith th e 19 9 8 re l     e as e re pre s e nt only about 12 pe rce nt of
th e e xpe cte d annualproje ct s avings of 2,587 w ork ye ars . Each ye ar of de l            ay in
com pl  e ting Re de s ign w illre s ult in ove r 2,000 w ork ye ars of fie l    d e m ploye e e ffort
th at cannot be re dire cte d to oth e r s e rvice ne e ds for th e A ge ncy.

Th e initialannuals avings s ch e dul e d for th e firs t re l
                                                             e as e (e xpe cte d to be de l
                                                                                          aye d at
l
e as t 3 to 6 m onth s )are re l
                               ate d to:

    • incre as e d initialclaim s autom ation (180 w ork ye ars ),
    • autom ation of titl  e XVIII(M e dicare )data col  le ction (63 w ork ye ars ),
    • autom ation of data col    le ction for th e continuing dis abil
                                                                     ity re vie w program
      (48 w ork ye ars ), and
    • autom ation of m is ce l lane ous PE actions (28 w ork ye ars ).

H ow e ve r, th e re m aining 2,269 annualw ork ye ar s avings w il       lnot be ach ie ve d until
com pl  e tion of th e finals oftw are re le as e . Th e k e y factor is th at th e finals oftw are
re l
   e as e is planne d to re pl ace th e e xis ting 28 program s , th e re by re ducing com pute r
proce s s ing e xce ptions by 80 pe rce nt and virtual      ly elim inating m anualcom pute r
e dits for al linitialcl aim and PE actions .

W e ide ntifie d additionalbe ne fits from Re de s ign th at w e re not incl       ude d in CBA .

Th e s e be ne fits cons is t of w ork ye ar s avings as s ociate d w ith e xpe cte d productivity

gains in O S. Th e ne w s tre am l              e IIcode w il
                                      ine d titl
             lbe e as ie r to m aintain and
m odify. An O S m anage r e s tim ate d th at th e num be r of program m ing s taff ne e de d
to m aintain and de ve l    op titl
                                  e IIbus ine s s function s oftw are w il   lbe about 25 pe rce nt
of th e program m e rs pre s e ntl  y pe rform ing th e s e activitie s . Th is e q uate s to an
annuals avings of 9 1.5 w ork ye ars bas e d on th e curre nt s taffing l         e ve l
                                                                                       .

RED ESIGN PRO GRESS IS SLO W

Lack of M e dicare Expe rtis e




                                                  6

Th e initials oftw are re l  e as e is at le as t 3 to 6 m onth s b e h ind s ch e dul e . According
to th e proje ct m anage r, one k e y re as on w as d e l   ay s in com pl  e ting de ve l opm e nt of
criticals oftw are for proce s s ing M e dicare e nrol     m e nt data. SSA is s til
                                                           l                             lin th e s tage
of de ve l oping th e proce s s ing s pe cifications for th e ne w com m on bus ine s s function
th at h andl e s be ne ficiary e nrol  l
                                       m e nt data. Com pl   e ting th is tas k re q uire s s taff w ith
k now l e dge of th e M e dicare program . Proje ct official      s s tate d th at th e y h ad be e n
unabl  e to augm e nt s taff w ith th e ne ce s s ary back ground to com pl        e te th is s tage .

Sh ortage of Program m e rs and A nal
                                    y s ts

Proje ct officials s tate d th at th e y h ave not be e n abl
                                                            e to re tain a s ufficie nt num be r
of q ualifie d program m ing s taff on th e Re de s ign proje ct. Significant oth e r
com m itm e nts w h ich re duce s taff avail   abil
                                                  ity include :

    • m aintaining e xis ting s oftw are ,
    • de ve l
            oping ne w s oftw are to s upport l  e gis l
                                                       ative ch ange s , and
    • m ak ing e xis ting program s com pl iant w ith “ye ar 2000”ch ange s .

In addition, Re de s ign ne e ds m ore anal     y s ts w h o unde rs tand th e titl e IIbus ine s s
functions to e xpe dite th e te s ting, val   idating, and inte grating of com pl       e te d s oftw are
m odul e s . Finalte s ting re q uire s th e com pl   e te d s oftw are to proce s s be ne ficiary
trans actions m e e ting a w ide varie ty of bus ine s s s ituations .

Us e of Pe rs onalCom pute rs for Softw are Te s ting

Th e proje ct m anage r s tate d th at 9 3 of th e 117 as s igne d program m ing s taff are s til         l
w aiting for th e ne ce s s ary pe rs onalcom pute rs (PC)or PC upgrade s to te s t th e
com pl   e te d s oftw are code . As a re s ul t, te s ting is pe rform e d on th e m ainfram e
com pute r us ing an input te rm inalbut th is h as b e e n a s l     ow proce s s . A l   th ough no
e s tim ate of tim e s avings w as provide d, O S re cognize s th at PCs can acce l           e rate th e
te s ting of com pl   e te d code . O S h as contracte d w ith a ve ndor to de l      ive r PC
s oftw are th at w il  laid in th e te s ting of com pl  e te d code . None th e le s s , at th e tim e

of our re vie w , th e program m ing s taff w as s til    law aiting th e arrivalof th e

h igh -pe rform ance PCs .





                                                    7

    CO NCLUSIO NS AND RECO M M END A TIO NS


Th e ne e d for a re de s igne d s y s te m for titl  e IIh as b e e n re cognize d for about
15 ye ars . In th e e arl   y 19 80’  s , SSA ’ s s y s te m s m ode rnization pl  an re cognize d th e
ne e d for a re de s ign of titl  e IIs oftw are to s tre am l  ine both s y s te m s and fie l
                                                                                              d
ope rations . In 19 83, SSA com pl         e te d th e functionalre q uire m e nts for th e re de s ign
of a s ingl  e s y s te m of titl
                                e IIbus ine s s s oftw are . H ow e ve r, it w as not untilth e e arl   y
19 9 0’  s th at th e A ge ncy addre s s e d th e im pact on FO s of 28 PE program s w ith
th e ir num e rous re dundant bus ine s s functions and th e l         ack of inte grate d data w ith
th e initialcl  aim s proce s s .

In 19 9 4, SSA initiate d Re de s ign to cre ate a s ingl         e s y s te m for proce s s ing both
initialcl  aim s and PE e ve nts . A l   th ough th e proje ct h as b e e n unde rw ay for ne arl         y
3 ye ars , SSA h as h ad to de l     ay th e initials oftw are re l     e as e s ch e dul e d for Se pte m be r
19 9 8 by 3 to 6 m onth s . Th is firs t re l      e as e w il
                                                             lh ave m inim alim pact on w ork ye ar
s avings in th e fie l  d. A s e cond re l   e as e h as b e e n adde d to provide s om e inte rim
be ne fits to th e fie l d. Th e date for th e finalre l      e as e to com pl    e te th e proje ct h as not
be e n e s tablis h e d. A s a re s ult, th e re al  ization of th ous ands of w ork ye ar s avings
w illbe de l  aye d w h ich , in turn, re duce s th e s taff re s ource s avail        abl e for re all
                                                                                                      ocation
to oth e r cus tom e r s e rvice ne e ds .

W e re com m e nd th at SSA incre as e th e re s ource s as s igne d to Re de s ign in orde r to
ach ie ve its tim e l
                    y com pl
                           e tion. Spe cifical ly, w e re com m e nd th at SSA :

1. com m it gre ate r re s ource s to th e proje ct, incl
                                                        uding th e ne e de d program m e rs and
   program anal   y s ts ;

2. obtain ne ce s s ary s taff w ith e xpe rtis e in th e M e dicare program to e xpe dite th e
   tim e l
         y com pl e tion of criticals oftw are m odul     e s ;and

3. prioritize de l ive ry of h igh -pe rform ance PCs to O S s taff to e xpe dite th e te s ting of
   com pl e te d s oftw are m odul   es.

AGENCY CO M M ENTS

In its w ritte n re s pons e to th e draft re port, SSA agre e d w ith our findings and
re com m e ndations . To date , SSA h as as s igne d additionalre s ource s to th e proje ct,
incl uding s taff w ith M e dicare and h e al   th ins urance e xpe rtis e , and obtaine d
h igh -pe rform ance com pute rs to e xpe dite com pl      e tion of th e s oftw are m odul  es.
SSA al   s o s tate d th at it h as re -e val
                                            uate d th e im ple m e ntation s ch e dul
                                                                                    e for th e


                                                      8

proje ct and de ve l  ope d a s trate gy to accom pl     is h th e Re de s ign th rough incre m e ntal
              e as e s . SSA ack now l
s oftw are re l                          e dge d th at Re de s ign w il  lnot be ful  y im pl
                                                                                      l      e m e nte d
by FY 2000 but h as pl      anne d s e ve ralre le as e s to provide inte rim w ork ye ar s avings
for FY s 19 9 9 and 2000. (Se e A ppe ndix A for th e ful           lte xt of th e A ge ncy’s
com m e nts .)

O IG RESPO NSE

W e agre e w ith th e corre ctive actions tak e n by th e A ge ncy.




                                                   9

A PPEND ICES

                                A PPEND IX A


SSA CO M M ENTS TO TH E D RAFT REPO RT





                 A -1

                                                                                 A PPEND IX B


   M A JO R CO NTRIBUTO RS TO TH E REPO RT


O ffice of th e Ins pe ctor Ge ne ral


F. W il
      liam Fe rnande z, D ire ctor, Be ne fit Paym e nts

Jack H . Trude l
               , D e puty D ire ctor

D ave T. Gal
           lo, Se nior Auditor

Tim oth y E. M e inh ol
                      z, Auditor



For additionalcopie s of th is re port, pl   e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral s Publ
          ’     ic A ffairs Spe cialis t at (410)9 66-9 135. Re fe r to Com m on
Ide ntification Num be r A -09 -9 7-11001.




                                             B-1

                             A PPEND IX C


SSA O RGAN IZ A TIO NA LCH ART





             C-1

